<html>
<title> - THE EMERGING IMPORTANCE OF THE U.S.-CENTRAL ASIA PARTNERSHIP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     THE EMERGING IMPORTANCE OF THE 
                     U.S.-CENTRAL ASIA PARTNERSHIP 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 17, 2010

                               __________

                           Serial No. 111-134

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-400 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH, Florida          CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
                        











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Jr., Assistant Secretary, Bureau 
  of South and Central Asian Affairs, U.S. Department of State 
  (Former United States Ambassador to Sri Lanka and Maldives)....     9
Mr. David S. Sedney, Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan and Central Asia, Office of the Assistant 
  Secretary of Defense for Asian and Pacific Security Affairs, 
  U.S. Department of Defense.....................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     6
The Honorable Robert O. Blake, Jr.: Prepared statement...........    13
Mr. David S. Sedney: Prepared statement..........................    24

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Material submitted for the record.........    42
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    51


      THE EMERGING IMPORTANCE OF THE U.S.-CENTRAL ASIA PARTNERSHIP

                              ----------                              


                      WEDNESDAY, NOVEMBER 17, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:35 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. This is a hearing of the House Foreign 
Affairs Subcommittee on Asia, the Pacific and the Global 
Environment. The topic for discussion and dialogue this 
afternoon is the emerging importance of the U.S. and Central 
Asia partnership. My good friend, the ranking minority member, 
at this point in time at least, is on his way. And I would like 
to preface my remarks in terms of this being the last hearing 
that I am going to chair in my capacity as chairman of this 
Foreign Affairs Subcommittee on Asia, the Pacific and the 
Global Environment. And I wanted, especially, for my good 
friend, the gentleman from Illinois, to be here so that I could 
have some choice words to say about our great relationship over 
the years he has served as the ranking member of this 
subcommittee, my good friend Congressman Don Manzullo from 
Illinois.
    So, as you know, there are a lot of things that have 
happened in the course of the past couple of weeks. I do offer 
my congratulations. This is how beautiful democracy is. We 
didn't have to go through a revolution or state of war, or 
whatever it is to change government, at least in this important 
body. The makeup of our democracy means that my good friends on 
the other side of the aisle have regained the majority of this 
House and accordingly, they will also control the various 
aspects of how this institution is going to be administered and 
how it's going to be operating.
    So I do want to offer my sincere apologies to Assistant 
Secretary Blake and Mr. Sedney from the Defense Department for 
your patience and forbearance in bearing with us and the 
problems that we have had with this afternoon's schedule. As 
you know, we had a little Democratic Caucus organizational 
meeting this morning, and we have just completed that meeting. 
And I do thank you for taking the time to be with us here this 
afternoon.
    I want to say that it has been my privilege to work closely 
with my good friend, who I believe will be the new chairman of 
this subcommittee when they reorganize. And that, again, is my 
good friend, Mr. Manzullo, who will take up the chairmanship of 
this subcommittee. I want to say that even though we have not 
agreed on all of the issues that have been discussed and 
debated in this subcommittee, I have the utmost respect for his 
opinions and the positions he has taken on some of the issues 
we have engaged on. This is what makes this democracy so 
beautiful: That we are free to engage in dialogue and express 
differences of opinion about given issues, how they impact our 
national policies, and most important of all, provide for the 
welfare of our fellow Americans.
    Being a member of this committee now for almost 22 years, 
it is one of the most enriching experiences of my life.
    And I am going to begin our hearing this afternoon by 
giving this opening statement that I have prepared for the past 
100 years. So please bear with me, Mr. Secretary and Mr. 
Sedney, since this is my last hurrah, I sincerely ask you, you 
might make some points out of it.
    But anyway, this is the final hearing to be held by the 
subcommittee of the 111th Congress during my tenure as 
chairman. I am especially pleased to welcome U.S. Assistant 
Secretary of State for South and Central Asian Affairs, Robert 
Blake, who will testify today about the emerging importance of 
the United States and Central Asian partnership.
    I admire Assistant Secretary Blake and the work he is doing 
to strengthen our relationship with Central Asia, and I am 
appreciative that he served as our keynote speaker last year in 
November, when Ranking Member Buck McKeon of the Armed Services 
Committee and I kicked off the Congressional Caucus on Central 
Asia, which we established to highlight the importance of 
Central Asia to U.S. security, energy, and economic interests.
    I was first introduced to the challenges facing Central 
Asia through my friendship with His Excellency, Kanat 
Saudabayev, who now serves as the foreign minister and 
Secretary of State for the Republic of Kazakhstan as well as 
the chairperson-in-office of the Organization for Security and 
Cooperation in Europe, but who once served as Ambassador of 
Kazakhstan to the United States for more than 6\1/2\ years.
    My friendship with Foreign Minister Saudabayev has spanned 
almost a decade now, and because of him, I have come to 
appreciate President Nursultan Nazarbayev's leadership in 
championing nuclear disarmament among possessor states and 
preventing proliferation to new states.
    From 1949 to 1991, the former Soviet Union conducted nearly 
500 nuclear tests in Semipalatinsk, Kazakhstan, and exposed 
more than 1.5 million Kazakhs to nuclear radiation. After the 
collapse of the Soviet Union, Kazakhstan was left with the 
world's fourth largest nuclear arsenal and the world's second 
largest nuclear test site.
    While Kazakhstan could have emerged as a nuclear superpower 
and used its position to resolve the financial problems of a 
new and struggling nation, President Nazarbayev was among the 
first to recognize and neutralize the dangerous threat posed by 
the nuclear arsenal Kazakhstan inherited from the former Soviet 
Union.
    Despite threats from the Kremlin, President Nazarbayev 
supported the Nunn-Lugar program in its infancy, and 
voluntarily dismantled a nuclear arsenal which was larger than 
the combined nuclear arsenals of Great Britain, France, and 
China.
    As a Pacific Islander, I have a special affinity for the 
people of Kazakhstan because from 1946 to 1958, the United 
States detonated 67 nuclear weapons in the Marshall Islands, 
including the first hydrogen bomb--what was then known as the 
Bravo shot in 1954--which was 1,300 times more powerful than 
the bombs we dropped on Hiroshima and Nagasaki. The nuclear 
testing program exposed the people in the Marshall Islands to 
severe health problems and genetic abnormalities for 
generations to come. The U.S. nuclear testing program in the 
Marshall Islands also set a precedent for France to use the 
islands of the Pacific for its own testing programs. Oh, no. 
Don't test it in France--not in Paris. Take it where there are 
a bunch of natives sitting out in the middle of nowhere in the 
Pacific to do their nuclear testing.
    And for some 30 years, the French Government detonated 
approximately 218 nuclear bombs in the air, on the surface, and 
below the surface of these atolls known as Moruroa and 
Fangataufa. And these atolls are about a couple of hundred 
miles away from the main island of Tahiti in French Polynesia.
    In Kazakhstan, the cumulative power of explosions from 
nuclear tests conducted by the former Soviet Union is believed 
to be equal to the power of 2,500 explosions of the type of 
bomb dropped in Hiroshima, Japan in 1945.
    Six years ago, I felt a deep sense of obligation as a 
Member of Congress who had visited the nuclear test sites in 
the Marshall Islands and Tahiti to also visit the Semipalatinsk 
test site in Kazakhstan. During my visit and at the invitation 
of President Nazarbayev, I learned that I was the first 
American legislator to set foot on ground zero in 
Semipalatinsk, Kazakhstan. And to this date, ground zero is 
still radioactive.
    During my time in Semipalatinsk, I also met and visited 
with the bed-ridden victims of nuclear testing, and I continue 
to be haunted by their suffering. However, I am grateful to my 
colleagues who stood with me during the 109th Congress in 
passing House Resolution 905, which called upon the U.S. 
administration to establish a joint working group with the 
Government of Kazakhstan to assist in assessing the 
environmental damage and health effects caused by the former 
Soviet Union's nuclear testing in Kazakhstan. And I am hopeful 
that the Obama administration will follow up on this resolution 
and establish this long overdue working group.
    Currently the Obama administration has listed five 
objectives for enhanced U.S. engagement in Central Asia. These 
objectives include maximizing cooperation for coalition efforts 
in Afghanistan and Pakistan with increased emphasis on the use 
of air bases and the transit of troops and supplies to 
Afghanistan along the northern distribution network; increasing 
the development and diversification of the region's energy 
resources; promoting good governance and respect for human 
rights; and fostering competitive market economies, and 
preventing state failures in Tajikistan and Kyrgyzstan by 
enhancing food security assistance.
    Signs of this enhanced engagement includes a recent meeting 
between President Obama and President Nazarbayev at the Nuclear 
Security Summit held in Washington, DC, in April of this year, 
and U.S. support for the OSCE summit which will be held in 
Astana, Kazakhstan, on December 1st and 2nd, next month, of 
this year.
    Three years ago, under the Bush administration, my 
colleagues and I spearheaded an effort in Congress calling upon 
the United States to support Kazakhstan's bid to chair the 
OSCE, and I am including this September 17, 2007, letter to the 
U.S. Secretary of State Condoleezza Rice for the record. 
Recognizing, as David Wilshire, head of the delegation of the 
Parliamentary Assembly of the Council of Europe, noted, that 
building democracy is a long and hard task. I felt that the 
U.S. could and should offer a gesture of goodwill by assisting 
Kazakhstan in its bid to chair the OSCE considering that 
Kazakhstan voluntarily worked with the U.S. to dismantle the 
world's fourth largest nuclear arsenal and has been a key ally 
in the war against terrorism.
    I am pleased that the U.S. finally supported Kazakhstan's 
bid for 2010. And while there will always be critics intent on 
criticizing Kazakhstan in its attempt to move the OSCE forward, 
member states unanimously voted in favor of Kazakhstan's 
chairmanship. I believe they did so in recognition of the bold 
steps President Nazarbayev has taken to bring Kazakhstan out 
from under the yoke of communism.
    Of course, there is work left to be done, but according to 
polling data from an independent firm hired by the U.S. Embassy 
in Kazakhstan during the Bush administration, 90 percent of the 
people of Kazakhstan support President Nazarbayev and are 
pleased with the work he is doing. And more than 63 percent of 
the people of Kazakhstan have a favorable opinion of the United 
States.
    Since 9/11, and regarding U.S. coalition operations in 
Afghanistan, Kazakhstan has allowed overflight and 
transshipment to assist U.S. efforts. U.S.-Kazakh Accords were 
signed in 2002 on the emergency use of Kazakhstan's Almaty 
airport and on other military-to-military relations. The Kazakh 
Parliament approved sending military engineers to Iraq in May 
2003.
    And in his April 2010 meeting with President Obama, 
President Nazarbayev agreed to facilitate U.S. military air 
flights along a new transpolar route that transits Kazakhstan 
to Afghanistan. Now Kazakhstan is the first post-Soviet, the 
first predominantly Muslim, and the first Central Asian nation 
to serve in the top leadership role of the OSCE, an 
organization known for promoting democracy, human rights, and 
the rule of law.
    As chair of the OSCE, Kazakhstan will also host the Astana 
Summit. The Astana Summit, like Kazakhstan's chairmanship of 
the OSCE, is historic. It is historic.
    Earlier this year, my colleagues and I spearheaded an 
effort calling upon the United States to stand with Kazakhstan 
in support of an OSCE summit. And I will also make this January 
27, 2010, letter to President Obama part of the record, while 
expressing my appreciation to the Obama administration, and 
especially to U.S. Secretary of State Clinton and Assistant 
Secretary of State Blake, who are expected to represent the 
United States at the Astana Summit. It is my hope that I might 
also be there to witness this historic occasion.
    The Astana Summit has been organized at the initiative of 
President Nazarbayev, and will be the first OSCE meeting of 
heads of state to take place in more than 10 years. It has been 
10 years since the OSCE held a security summit, and the world 
has changed drastically since then as a direct result of 9/11.
    While I have serious reservations about U.S. involvement in 
Afghanistan, Kazakhstan aims to use the OSCE chair and summit 
to press for a resolution of the conflict in Afghanistan, and 
for this reason, I am pleased that the United States is 
supporting the Astana Summit. However, given the serious 
importance of the summit to U.S. efforts in Afghanistan, I hope 
President Obama will make it his top priority to attend. His 
presence will send the right signal to our allies in Central 
Asia who are also putting their lives on the line for us.
    At this time I want to commend Uzbekistan, Kazakhstan, 
Tajikistan, Kyrgyzstan, Turkmenistan, and Latvia for providing 
supply routes to support U.S. and NATO operations in 
Afghanistan. Known as the Northern Distribution Network, these 
operations are critical to coalition efforts. Simply put, 
without the support of Central Asia, we have no hope in 
Afghanistan.
    But I would hope that our partnership with Central Asia 
would extend past the war in Afghanistan in both breadth and 
depth. For over 100 years, the people of Central Asia have 
lived without basic freedoms. In my humble opinion, based on 
meetings with the people and leaders of these countries, they, 
like us, want to continue their march toward democracy, and it 
is my sincere hope to do what I can in my capacity as a Member 
of this great institution.
    Again, it is my honor to welcome our witnesses, including 
the Honorable Robert Blake, Assistant Secretary of State for 
South and Central Asian Affairs, and Mr. David Sedney, the 
Deputy Assistant Secretary of Defense for Afghanistan, 
Pakistan, and Central Asia. I do want to thank them both for 
their service to our country, especially to all of the men and 
women in our Armed Forces and I also will always extend to them 
my highest regards. As a Vietnam veteran, I cannot say enough 
about the sacrifices that the families of our men and women in 
uniform make for our Nation. And I think at times we don't say 
enough to express how much we appreciate what they do and the 
service they render to our country.
    I am so happy and very honored that I have my good friend 
and ranking member of this subcommittee, whom I sincerely hope 
will be the chairman of the committee in the coming weeks, my 
good friend, the gentleman from Illinois, Mr. Manzullo.
    I want to say, before giving him the time for his opening 
statement, I just want to state for the record that it is 
indeed my personal honor to have worked with you for all of 
these years, and as I said earlier in my remarks, we have not 
always agreed on the issues we have discussed and debated on, 
but the mutual respect for each other I want to say is second 
to none. And I want to thank you, sir, for all of the help in 
the times that we went through, up and down, whatever way. It 
has always been my honor to work with you.
    [The prepared statement of Mr. Faleomavaega follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Manzullo. This is not a farewell party. But I have 
tremendous respect for my chairman and look forward to working 
with you. And I commend you for having a hearing on countries 
that have essentially been forgotten but are absolutely 
critical to the future of not only of our country, but the 
stability of the entire region and I look forward to testimony 
of the witnesses.
    Mr. Faleomavaega. I thank the gentleman from Illinois.
    I would like to now introduce our distinguished witnesses 
this afternoon. Assistant Secretary Blake, who is a senior 
officer with the Foreign Service, served previously as 
Ambassador to Sri Lanka and the Maldives. Also Deputy Chief of 
Mission to New Delhi, India. He served also in Tunisia, 
Algeria, Egypt and Nigeria.
    Mr. Blake earned his degree at Harvard, also a master's 
degree at Johns Hopkins University, and has been appointed now 
as our Assistant Secretary for South and Central Asian Affairs 
since last year.
    Also with us is Mr. Samuel Sedney, the Deputy Assistant 
Secretary of Defense for Afghanistan, Pakistan, and Central 
Asia in the Office of the Assistant Secretary of Defense for 
Asian and Pacific Security Affairs. Mr. Sedney has been Deputy 
Assistant Secretary for 2 years in this capacity. Before 
serving in the Department of Defense, he spent 5 years as a 
house husband in Bern, Switzerland. Wow, that's a real tough 
task for Mr. Sedney to do. A graduate of Princeton University 
and Suffolk School of Law. He attended Louisiana State 
University's School of Law where he studied law. And a very 
distinguished career for both of these gentlemen. And again, I 
want to say how much I appreciate both of you making the effort 
to come and testify before the subcommittee. The staff has just 
given me a note.
    Well, why don't we start with Secretary Blake. We still 
have time. I will tell you when it's 4:30, Mr. Sedney. We can 
do that. Thank you, Mr. Blake, please proceed.

  STATEMENT OF THE HONORABLE ROBERT O. BLAKE, JR., ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
  DEPARTMENT OF STATE (FORMER UNITED STATES AMBASSADOR TO SRI 
                      LANKA AND MALDIVES)

    Ambassador Blake. Thank you very much, Mr. Chairman, and I 
appreciate all of your opening remarks. And let me, at the 
outset, thank you so much for your leadership of this 
subcommittee while I have been Assistant Secretary. It has been 
a real pleasure to work with you. And I can tell you everybody 
at the State Department and the Obama administration 
appreciates the energy and dedication that you have brought to 
helping to enhance our cooperation and our engagement with 
Central Asia.
    You mentioned your leadership in establishing the Central 
Asia Caucus, but you have also been a frequent traveler to the 
region and have really helped to raise the profile of this very 
important country, and of course, we wish you well and look 
forward to continuing to work with you, and of course, Mr. 
Manzullo and his colleagues as they enter into the majority.
    Mr. Faleomavaega. We're not leaving.
    Ambassador Blake. I have a longer statement for the record. 
With your permission----
    Mr. Faleomavaega. Without objection, both of your 
statements will be made part of the record, and if you have any 
related materials that you want to submit for the record, they 
will be.
    Ambassador Blake. Thank you so much. Mr. Chairman, Central 
Asia, as you say, lies at a very critical, strategic crossroads 
bordering Afghanistan, China, Russia, and Iran, which is why 
the United States wants to continue to expand our engagement 
and our cooperation with this critical region.
    We have identified five main priorities for our engagement 
in Central Asia. First, to assist coalition efforts in 
Afghanistan; also to increase the development of the region's 
energy resources and diversification of supply routes; 
encourage political liberalization; enhance respect for human 
rights; to foster competitive market economies and openings for 
businesses; and also increase the capacity of states to govern 
themselves effectively and serve the needs of their citizens.
    Mr. Chairman, we don't see ourselves in competition for 
influence with any other country, nor do we accept that the 
five central Asian countries constitute an exclusive zone of 
interest for any country. To the contrary, we want to cooperate 
more with Russia, China, and others to address the critical 
challenges and produce a more durable stability and more 
reliable partners for everyone.
    Central Asia has, in fact, been an area of common ground 
for us to engage with Russia and to further the reset of our 
relations with Russia, especially regarding Kyrgyzstan, where 
they have been key partners.
    In order to pursue our goals, we have developed in 
partnership with countries in the region structured annual 
bilateral consultations that I lead to elevate, enhance, and 
energize our dialogue with each of the countries of Central 
Asia. So let me highlight some of the key issues of these 
countries.
    Starting with Kyrgyzstan, the situation in the Kyrgyz 
Republic remains a vital interest to the United States. As you 
know, Mr. Chairman, on October 10, the Kyrgyz Republic held 
Central Asia's first truly free parliamentary elections in 
which the outcomes were not known in advance. And we are now 
encouraging the leaders of the five parties there that 
qualified for seats to cooperate and form an inclusive and 
representative government.
    The United States played a very active role in facilitating 
this Democratic achievement through our assistance programs and 
grants to the Kyrgyz Government and civil society and our 
participation in the election monitoring mission.
    At the same time, we are supporting the International 
Commission to investigate the violence that took place in June 
in southern Kyrgyzstan. This commission is headed by Kimmo 
Kiljunen, a member of the Finnish Parliament.
    We are also continuing to support an OSCE initiative to 
improve public security, particularly in the south, to assist 
in the urgent task of restoring mutual trust and preventing 
further conflict in that important country.
    Kyrgyzstan also remains an important partner in our efforts 
in Afghanistan. The Manas Transit Center represents a key 
contribution by the Kyrgyz Republic to the efforts of the 
International Coalition to provide security for the Afghan 
people.
    Turning to Kazakhstan, I appreciate your comments on 
Kazakhstan, Mr. Chairman. As you say, our relations with 
Kazakhstan are probably our deepest and broadest of any in 
Central Asia. And since you have mentioned it, I would like to 
particularly recognize the recent completion of the long-term 
effort to safely shut down Kazakhstan's BN 350, plutonium 
production reactor, secure the spent fuel that it produced, and 
then to transport that fuel to a secure facility. That process 
has now been completed and marks a real milestone in our 
nonproliferation cooperation, and I commend Kazakhstan for 
that.
    As you say, Mr. Chairman, Kazakhstan also has been a strong 
supporter of U.S. efforts in Afghanistan. But really the 
spotlight is right now on Astana for another reason, because it 
is the chairman and office of the OSCE, and Kazakhstan is about 
to host the first OSCE summit in 11 years in Astana on December 
1 and 2.
    We think that Kazakhstan has done a very credible job as 
OSCE chairman-in-office, especially dealing with the situation 
in Kyrgyzstan, where the OSCE has really been at the forefront 
of efforts to promote peace, democracy, and reconciliation.
    We are also pleased that Kazakhstan has agreed to follow 
the example of past summits and allow full access by NGOs and 
permit NGOs to organize a parallel event on November 28 and 29.
    We also encourage Kazakhstan to continue improve its human 
rights record and to uphold the commitments it made in taking 
on this chairmanship.
    Mr. Chairman, Secretary Clinton plans to lead the U.S. 
delegation to the OSCE summit. And we hope it to be successful. 
The summit should produce two key documents. First, a Helsinki 
Final Act 35th anniversary statement that reaffirms all of 
those commitments, and also an ambitious substantive action 
plan to guide future work of the OSCE. And of course, Mr. 
Chairman, we would be delighted to welcome you as part of the 
U.S. delegation in Astana.
    Turning to Uzbekistan, as with other countries, the United 
States has also increased our engagement with that important 
country. We have a very full agenda of security, economic, and 
human rights issues that we are working with them on. 
Uzbekistan is a particular key partner for the U.S. effort in 
Afghanistan for providing electricity to keep the lights on in 
Kabul; it has facilitated transit for central supplies for 
coalition forces, and it has helped to construct a very 
important rail line inside Afghanistan.
    So we have seen an improved relationship with Uzbekistan, 
but some challenges remain. We continue to encourage the Uzbeks 
to address significant human rights concerns, such as ending 
forced child labor, opening up the media environment, and 
demonstrating greater tolerance for religious activities.
    In Tajikistan, as you mentioned, Mr. Chairman, is one of 
the poorest countries in the world, and a fragile state in a 
volatile neighborhood. Recent skirmishes between the government 
and the formal civil war combatants, as well as security 
threats, such as the August 25 prison break, really reflect the 
continued tensions in that country. The United States is 
working to strengthen law enforcement, border security, 
increase food security, as you mentioned, strengthen health, 
health and education, and encourage respect for human rights--
particularly religious and media freedom.
    Last but not least in Turkmenistan, we continue to make 
progress in facilitating Turkmenistan's gradual opening up and 
its efforts to move toward reform and greater respect for human 
rights. We also appreciate Turkmenistan's humanitarian help in 
neighboring Afghanistan through its provision of discounted 
electricity.
    As part of our first ever annual bilateral consultations in 
Ashgabat in June, I led the first ever U.S. business mission to 
Turkmenistan, and this strengthened an important commercial 
partnership with the nation that now holds the world's fourth 
largest natural gas reserves.
    Mr. Chairman, in conclusion, this administration considers 
Central Asia to be an important pillar of our security policy 
and regional U.S. interest. We recognize that the pace of 
change is often slow, and that our programs should focus on 
long-term, meaningful results. But through our invigorated 
policy dialogue and our engagement, we aim to strengthen our 
ties with these important countries and their people, and 
thereby advance U.S. interest in this strategically important 
region.
    And again, I thank you for your personal engagement.
    Mr. Faleomavaega. Thank you, Mr. Secretary.
    [The prepared statement of Mr. Blake follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Faleomavaega. Mr. Sedney.

STATEMENT OF MR. DAVID S. SEDNEY, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR AFGHANISTAN, PAKISTAN AND CENTRAL ASIA, OFFICE OF 
   THE ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC 
          SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Mr. Sedney. Mr. Chairman, Mr. Manzullo, thank you very much 
for this opportunity to speak with you regarding Central Asia 
policy.
    Assistant Secretary Blake has laid out for you the over-
arching goals and the efforts to achieve them on the part of 
the administration's Central Asia policy. I will focus my 
remarks briefly on the defense and security aspects of this 
relationship.
    As you said, Mr. Chairman, the focus of the Department of 
Defense's efforts in Central Asia today in the short-term are 
the transport of goods and equipment and personnel through the 
ground and airline of communication through Central Asia. As 
you said, these are critical to support the efforts of our men 
and women in Afghanistan who are engaged in the vital effort 
that is necessary as we all work together to disrupt, 
dismantle, and defeat al-Qaeda, prevent its return to 
Afghanistan and ensure the success of Pakistan as well.
    The Northern Distribution Network that you mentioned, in 
addition to which is purely commercial, additionally the 
Department of Defense conducts military overflights over most 
countries in Central Asia. We have close relations with each 
transit country and are working to increase the overflights and 
the ground lines of transportation.
    You referenced the agreements with Kazakhstan, that 
agreement with Kazakhstan that will allow in the near future to 
take advantage of the overflight, transport overflight that you 
mentioned, Mr. Chairman, as a major step forward and we 
appreciate that.
    Also importantly we have access to the Manas Transit Center 
in Kyrgyzstan through which virtually all of our combat troops 
and many of our allies transit on their way into and out of 
Afghanistan.
    We greatly appreciate the willingness of the Kyrgyz 
Government and Kyrgyz people to continue their support in our 
common struggle, and we look forward to maintaining this 
important link in our logistical network. It is through such 
cooperation that we are able to make not just Afghanistan more 
stable and Pakistan safer, but also Central Asia more secure 
and protect the American homeland and the safety and security 
of our allies around the world.
    But beyond our focus on the immediate goals in Afghanistan, 
we also have long-term security assistance goals in Central 
Asia. Our security assistance focuses on the 
professionalization of the military border guards, 
counternarcotics forces and counterterrorism forces. We have 
seen a great deal of progress in this area.
    The George Marshall Center in Germany has trained close to 
1,000 Central Asia security professionals to date, for example. 
Similarly, our National Guard State partnership program has 
used our citizen soldiers to help work on civil-military 
relations throughout Central Asia.
    Through the provision of the training that I mentioned, we 
are helping to build modern counterterrorist peacekeeping and 
demining capabilities as these countries continue in moving 
beyond the Soviet era of military norms.
    We also work in the areas of humanitarian assistance to 
help to enhance the capacity of the local governments in 
Central Asia, working closely with our partners in the State 
Department, USAID and the NGO community. Humanitarian 
assistance programs from the Department of Defense has included 
such things as a deworming program for Kyrgyz citizens, 
renovating schools and orphanages, donating buses and school 
supplies, to name a few.
    We also have regular high-level consultations, both on the 
civilian and military side of the Department of Defense. Most 
recently, General Mattos, the CENTCOM commander, was in Central 
Asia, and he is still in the region as we speak. Our TRANSCOM 
commander has also visited multiple times. The Department of 
Defense joins in and supports and participates in the annual 
bilateral consultations that Assistant Secretary Blake chairs. 
We think that is a key effort in moving our relationships with 
the Central Asian countries forward across the board.
    Central Asia, as both you, Mr. Chairman, mentioned is part 
of a larger region that includes Afghanistan and Pakistan. The 
growth of the Northern Distribution Network offers the prospect 
of a continuing economic and commercial foundation that will 
help the growth and trade and investment across national 
boundaries and holds the prospect of helping those countries 
move into the mainstream of world trade and commerce.
    While that is not the purpose of what we are doing at in 
the northern distribution network, it holds the prospect of 
doing that in the future.
    I would like to close by echoing your comment, Mr. 
Chairman, regarding the sacrifices of our men and women.
    I was just in Afghanistan visiting many of our troops. They 
depend on the goods and services that are provided through the 
Northern Distribution Network through the partnership of our 
Central Asian countries, and we are committed to continuing 
that effort and expanding it in the future.
    Thank you.
    [The prepared statement of Mr. Sedney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Faleomavaega. I appreciate your statements and 
observations on some of the issues.
    Because you have got a schedule problem, Secretary Sedney, 
I had some things I wanted to check with you about.
    I think it seems our policy toward Central Asia seems to be 
focused entirely on our current efforts, and our involvement in 
the war in Afghanistan, and so it is for security purposes 
primarily. Am I correct on that?
    Mr. Sedney. From a Department of Defense perspective, that 
is our number one priority. In terms of our overall 
relationships with Central Asia, they go much beyond the 
security area. And as Assistant Secretary Blake laid out, we 
have a wide range of enduring interests. I'll defer to 
Assistant Secretary Blake to do that. But it is true, from the 
Department of Defense perspective, that our focus is on the 
support for the effort in Afghanistan, but that is accompanied 
by the longer-termed security assistance projects and including 
a variety of training efforts in areas from counterterrorism to 
counternarcotics that are building capabilities in those 
countries that are important for reasons well beyond 
Afghanistan.
    Mr. Faleomavaega. We all know that these countries were 
formerly basically colonies of the Soviet Union for some 100 
years before they got their freedoms and separated into 
sovereign entities. And I know when we talk about Central Asia, 
I would say 95 percent of the American people don't know where 
it is located, simply because they have all been part of the 
Soviet Empire. And there really has been hardly any engagement 
process, economically, socially, or anything.
    And I just wanted to know the latest problems that we are 
faced with in our current policy. And I realize that our reason 
for being in Afghanistan is to prevent the Taliban or al-Qaeda 
from coming to our shores and killing our people. Is that 
basically the reason we are fighting this war?
    Mr. Sedney. Exactly, Mr. Chairman. As the President has 
said, our national goal is to disrupt, dismantle and defeat al-
Qaeda, and to prevent its return to safe havens in Afghanistan.
    Mr. Faleomavaega. And in the process, we have only had a 
real sense of expertise or even understanding of the region in 
a very, very limited way. I say that maybe only 20 years or 30 
years of experience of engagement with these countries that we 
know very little about. Now, we can all claim expertise, but 
this is the same problem we had when we got involved in 
Vietnam. I would say that probably 99 percent of the American 
people never knew that countries like Vietnam, Laos, and 
Cambodia were colonies of the French. And the policies that we 
enunciated, what we did, boy, it was a real jumble there 
sending 500,000 of our soldiers, with 60,000 dead as a result. 
And that policy can be debated to this day.
    My concern is whether they have we learned any lessons from 
Vietnam--whether sending the military is really going to solve 
some of the more fundamental issues and problems that we face 
in countries like Afghanistan, or even in Pakistan, for that 
matter.
    Mr. Sedney. In terms of Afghanistan and Pakistan, Mr. 
Chairman, I can assure you as we are working to achieve the 
goals the President has laid out, our strategy is very much a 
combined civil/military whole of government strategy. And both 
in Afghanistan and Pakistan, our partnership with the 
Department of State, the other agencies of the United States 
Government, and the wider international community are key parts 
of that. It is not just a military solution.
    And I would point out to you that the Government of 
Kazakhstan, for example, has made a major commitment to educate 
a large number of Afghans in Kazakh universities, and it is 
something we very much appreciate. It is a kind of thing that 
is necessary as we move forward with the military effort and 
bringing security in Afghanistan is key.
    But the follow-on efforts to build capacity, to educate the 
population, are vital to ensuring that Afghanistan does not 
again become a safe haven. And the prospects for that require a 
regional approach.
    So we are working with the countries of Central Asia. The 
countries of Central Asia recognize the need to work. I have 
been visiting Central Asia and working on Central Asia for over 
15 years, and every time I travel through the Central Asian 
capitals, I find that the issue of helping Afghanistan succeed 
is very high on the agenda, and the partnership we have with 
those countries, even despite their limited resources, as 
Assistant Secretary Blake said, the Government of Kazakhstan is 
working with us in Afghanistan, and we look to continue to 
increase that partnership.
    Mr. Faleomavaega. I make this observation--and I never 
claim expertise in military tactics--but I have also read 
something to the effect that Afghanistan has been known as a 
``graveyard for empires.'' Alexander the Great could never 
conquer Afghanistan, and neither could the British. The Soviets 
were there for 10 years. They got kicked out of Afghanistan.
    So I am trying to get into the psychology of this whole 
thing. There are 12 million Pashtuns who live in Afghanistan. 
And within that 12 million population, we have about 100,000 
soldiers in Afghanistan to fight the Taliban who are supposedly 
our enemy.
    But what makes it even more complicated is that at the so-
called borderline between Pakistan and Afghanistan, there are 
27 million more Pashtuns who live in Pakistan. And I don't 
think you have to be a rocket scientist to figure out why we 
wouldn't get Osama bin Laden for all these years--simply 
because of the Taliban being able to protect him. He travels 
freely between Pakistan and Afghanistan.
    And whatever failures in our policies, the most powerful 
nation in the world could not even capture Osama bin Laden for 
almost 10 years. So I am a little frustrated to the extent I 
want to define exactly if we are going to put our men and women 
in harm's way, I would like to believe that this is the only 
option remaining for our country to do this and finding if 
there could be any other options or any other possibilities, 
and the involvement of these Asian countries that I have felt 
in the years that I have had to travel to these countries, it 
is a totally different psychology in how we look and say that 
these 27,000 Taliban and a couple hundred al-Qaeda is the very 
reason we are involved in this area.
    And please, I am not putting any personal thing against 
you. I just want to get a better understanding of what, $30 
billion we are about to expend for having our military forces 
in Afghanistan.
    How does this relate to, in a broader picture, how we deal 
with Central Asia? We are using these countries mainly to make 
it more convenient for our security forces to get what they 
need, resources, our soldiers and all of that. But is it just 
that only, or are there programs on how we can better develop 
an economic, social, educational, all of these things, that 
these Central Asian countries really have a need for?
    Mr. Sedney. Mr. Chairman, on Afghanistan there is a 
fundamental difference between the empires that you mentioned 
and the United States of America. We are not an Empire. We are 
not seeking to conquer Afghanistan. We are working with 
Afghanistan to build up an independent, sovereign Afghanistan, 
and sufficient security forces for Afghanistan to be able to 
protect itself, defend its sovereignty and prevent itself from 
becoming a safe haven for the Taliban--for al-Qaeda as it was 
before September 11, 2001.
    To that end, the key focus of our effort in Afghanistan is 
building up the Afghan security forces, the Afghan National 
Army. Over the last year we have had extraordinary success in 
building up the Afghan National Army. In the recent military 
operations around Kandahar, over 60 percent of the forces have 
been Afghan national army forces, a sharp increase, even from 
the operations in Helmand earlier this year.
    As President Obama has said, the United States is going to 
start a transition in the summer of 2011, and as President 
Karzai has said the objective is to have Afghan forces in the 
lead in the security area in all areas of Afghanistan by 2014. 
We are committed to that. We are not building an empire. We are 
working with our partners.
    You made some points about the Pashtuns. I have worked in 
Afghanistan for many years. I have worked on Afghanistan. I 
have many, many close friends and colleagues who are Pashtuns. 
There are many Pashtuns in the Afghan national army. According 
to both anecdotal and polling evidence, over 90 percent of 
Pashtuns do not want the Taliban to rule them.
    Mr. Faleomavaega. Please restate that again because most of 
the American people don't know this.
    Mr. Sedney. Over 90 percent of the Pashtuns don't want the 
Taliban to rule them. Pashtuns, from President Karzai, who is a 
Pashtun, to Minister Wardak who is a Pashtun, and the Minister 
of Defense throughout the Afghan Government, to Governor Weesa 
of Kandahar, who I just met a couple of weeks ago down in 
Kandahar, these are Pashtuns who are putting their lives on the 
line, the lives of their family, the lives of their children, 
because they know what the Taliban will bring back is 
oppression to Afghanistan and terrorism behind it.
    Mr. Faleomavaega. Would it be safe to say that, as far as 
the Department of Defense is concerned, the involvement of 
these Central Asian countries is very, very critical?
    Mr. Sedney. To the success of our operation as you said, 
sir, and thank you for saying, is very critical to the success 
of our operations to defend the American homeland.
    Mr. Faleomavaega. Mr. Sedney, I know you have a schedule, 
so if you need to leave.
    Mr. Sedney. I apologize for that. I can stay for another 10 
minutes.
    Ambassador Blake. Mr. Chairman, let me just jump in on your 
question of are we only focusing on Afghanistan. I would just 
like to assure you that that is really not the case. As I say, 
the purpose of these annual bilateral consultations that we set 
up is to engage each of these countries on the full range of 
interests--on both our agenda and on their agenda--and to do so 
in a very comprehensive way and in a very practical way to set 
concrete targets for moving and making progress.
    So with each of these countries we have 2 days of talks. 
You know, that is basically over 16 hours of talks that goes 
through every single thing in our agenda and very, very 
practically oriented.
    The other thing we are doing, Mr. Chairman, is we are 
setting up civil society and business components to these as 
well. So that to the maximum extent possible, our government-
to-government talks are informed by the American people and our 
various constituents who care about these issues.
    The other point I want to make, Mr. Chairman, is the 
Central Asians themselves welcome this increased engagement by 
the United States. As you say, the Russians have always had the 
predominant influence in Central Asia, but that's beginning to 
change. And I think with this reset of relations between the 
United States and Russia, that has opened up a little bit of 
space for the Central Asians to do more with us as well. They 
have really jumped into that space and I think have welcomed 
that engagement.
    I would also like to say the Russians themselves have 
welcomed a greater U.S. engagement. I think one of the real 
hallmarks of our efforts over the last year has been improved 
cooperation and coordination with the Russians, and you saw 
that in Kyrgyzstan, but you are going to see that more on 
things like counternarcotics and indeed in Afghanistan.
    Mr. Faleomavaega. One critical area in my experience in 
visiting and meeting with leaders of these Central Asian 
countries, Mr. Secretary, is education. We currently have in 
the United States 690,000 foreign students attending American 
colleges and universities. And I am curious how many students 
attend American colleges and universities from Central Asia at 
this point in time?
    Ambassador Blake. I don't have the figure off the top of my 
head but it is small.
    Mr. Faleomavaega. I hope my good friend from Illinois will 
take note of this, is that if it is their intention to cut the 
budget on our foreign assistance program, this is one area that 
I sincerely hope--to me, in my discussions with the leaders of 
these Central Asian countries, Mr. Secretary, I always believe 
that education is the salvation of these people and their 
leaders. And if they are limited in their capacity to provide a 
young generation of up-and-coming members of these different 
countries to come to our country, get a good education, then I 
think we are going to be in for a long haul. And I really 
believe it is the kind of investment that I always feel the 
greatest contributions that the United States can give and 
share with the good people of these countries is educational 
opportunities for these young people.
    Ambassador Blake. I couldn't agree with you more, Mr. 
Chairman. I think part of the reason--there are several reasons 
there aren't more Central Asians. First of all, there is the 
language barrier where many of them don't speak sufficiently 
good English to be able to compete and qualify for American 
universities. Also there is, of course, the distance, and it is 
expensive to travel and to go to school in the United States.
    But also, in some cases, there are restrictions on the 
ability of people to travel in places like Turkmenistan, and we 
are working with those governments.
    But we are also working inside these countries, Mr. 
Chairman, to expand English language training, because we think 
that is something has a huge and broad positive impact across 
the entire relationship. We are also working on programs like 
FLEX that provide more high school students with an opportunity 
to go to the United States for shorter periods of time, be 
exposed to the United States.
    And we are helping to develop English language universities 
inside Central Asia. A very good example of that is in 
Kazakhstan where there is a new full-time English language 
Kazakh university that has been set up, and it has cooperation 
with I think seven different American universities right now.
    So that is another terrific way to sort of build the 
American educational ties and eventually expose those students 
to our way of thinking, and also hopefully encourage them to do 
more studying in the United States.
    Mr. Faleomavaega. And especially also, given the fact that 
we only established diplomatic relations with these countries 
in the last 20 years. So it is an entirely different challenge, 
not only for the State Department, but even for the American 
people to understand. And we should know that so many great 
civilizations have come from this region--in fact, when I first 
met Ambassador Kanat Sadarbayav he thought I was a Kazakh. I 
said no, I am not a Kazakh. I am a Polynesian. Whatever that 
means. Some idiot defined us as Polynesians, and supposedly we 
come from many islands.
    I want to say that my given experience and being exposed 
and having to travel to these countries, I couldn't find people 
more caring and more interested and wanting to know more about 
America. They have tremendous potential for mineral resources 
contained, but they don't have the technology, the ability to 
transition themselves from being Communists. And sometimes I 
think some of our own colleagues in the United States demand 
that these people have to be full democracies like America.
    It took us over 150 years to give African Americans the 
right to vote, and yet we expect these countries to be right up 
to par with what democracy should be. I have always said I 
think we need to be a little more circumspect about the 
difficulties that these people are confronted with.
    The situation in Tajikistan. I know there has always been a 
little rivalry between Tajikistan and Uzbekistan. One has 
electricity and the other one has the water. Are we trying to 
make any efforts to resolve this problem which always seems to 
be--I would think that with our resources, we should be able to 
give assistance.
    Can you comment on this?
    Ambassador Blake. Sure, we are making quiet efforts, Mr. 
Chairman. I would say one the biggest differences between those 
two countries is on this issue of water, and specifically, on 
the question of the Rogun hydroelectric facility in Tajikistan, 
which the Uzbeks have a great many concerns about. They are 
fearful that this is going to be built in a seismically active 
zone. As a downstream country they are worried about potential 
arbitrary actions by Tajikistan that cut off their water.
    So we have supported an effort by the World Bank to 
undertake a feasibility study of this. To do it in a very fair 
and balanced way, to look at all these different equities, and 
to make some recommendations about how to move forward on this. 
And I think the World Bank has a lot of very good experience in 
this area. As you know, they have been very active in the whole 
water area as well between India and Pakistan. They run the 
dispute resolution mechanism that has been successful for 50 
years. So I think their experience will be very valuable in 
helping to find a way forward on this.
    Mr. Faleomavaega. I made the emphasis in my statement about 
our involvement. And it appears to be the most progressive in 
terms of its advancements in so many areas now, and the 
leadership and all that they have done. And I realize at times 
it gets to be a little competitive in wanting to know who is 
better than the other. But my sincere apologies, I just was not 
able to visit Turkmenistan and Tajikistan. One thing that I 
know with interest is the fact that there is no such thing as 
an Afghan. There are a couple of million Tajiks living in 
Afghanistan and about 3 million or 4 million Uzbeks living in 
Afghanistan.
    Ambassador Blake. And Turkmen.
    Mr. Faleomavaega. So this is what complicates what we are 
faced with in Afghanistan: There is no such thing as an Afghan. 
Pashtuns make up about 40, 45 percent of the entire population. 
So there is that complication to deal with.
    Do the border lines between these Central Asian countries 
with Afghanistan cause any problems?
    Ambassador Blake. You mean, are there border disputes? No.
    Mr. Faleomavaega. So the borders are very porous? I mean, 
they travel all the time?
    Ambassador Blake. They do, and that's one of our very key 
priorities is to work on, to enhance border security between 
those countries. David, if you want to----
    Mr. Sedney. We have a number of programs working with 
Turkmenistan, Uzbekistan and Tajikistan on border security. And 
we appreciate very much the continued willingness of the 
Congress to appropriate money for those programs. The progress 
that those countries have made in border security over the last 
several years is important. However, the continuing efforts by 
the Taliban, the al-Qaeda and other extremist movements to 
mount operations across that border is something of a great 
concern to us when we are working with those countries to 
ensure that we cooperate along that border, along with the 
Afghan forces.
    Mr. Faleomavaega. You know what my dream is, gentleman, I 
just wish that perhaps even 1 billion out of that 130 billion 
that we are giving to do our military operations goes into all 
aspects of education and social programs for the Central Asia 
countries. You are talking about a population of about 65 
million people total, and yet, the potential that is there, I 
just wish that there were resources that we could provide as a 
long-term investment, as a partnership.
    As you mentioned, Turkmenistan currently has the fourth 
largest reserves of natural gas. And I know these countries are 
filthy rich with minerals. And in all of this, I always say 
Central Asia is going to be another Middle East in years to 
come when these resources will become limited, oil, gas. They 
have it, and I sincerely hope that with our technology and 
programs, that the better-educated societies in these Central 
Asian countries, I think, will be a big help and something that 
certainly we can be proud of in our working closely with the 
leaders of these countries.
    Ambassador Blake. Mr. Chairman, may I just----
    Mr. Faleomavaega. Please.
    Ambassador Blake. My helpful staff here has just given me 
the exact figure of the numbers of the people who are studying. 
The largest number you would not be surprised to learn is from 
Kazakhstan, 1,936 students are studying in the United States; 
Kyrgyzstan has 274; Tajikistan, 288; Turkmenistan, 195; and 
Uzbekistan, 513. Obviously, we would like to do a lot more.
    Mr. Faleomavaega. I deeply appreciate that.
    Ambassador Blake. But I can tell you, the Secretary of 
State and also our Under Secretary for Public Diplomacy, Judith 
McHale, very committed to this education piece, and really want 
to do much more. And this is something that is a high priority 
for us in Central Asia.
    Mr. Faleomavaega. I realize there are 1.3 billion people 
living in China and they say 100,000 students from China 
currently attend American universities.
    Ambassador Blake. It is more now, it is 124,000.
    Mr. Faleomavaega. It is 124,000, and India is right next to 
it with nearly 100,000.
    Ambassador Blake. A little more, yeah.
    Mr. Secretary, Mr. Sedney.
    Mr. Sedney. I apologize, Mr. Chairman, Representative 
Manzullo, that I have to leave. I very much appreciate the 
opportunity to speak before you and look forward to the 
opportunity to do so again in the future. And it has been a 
very useful and educational experience for me as it always is 
when I come over to Capitol Hill. So again, I appreciate that 
and my personal apologies for having to leave.
    Mr. Faleomavaega. Well, I want to say that we deeply 
appreciate the services that you give to our country, Mr. 
Secretary. And we hope you will continue the good work for the 
American people. We appreciate it very. I have a couple more 
questions of Secretary Blake, so just make sure to keep an eye 
on our backs, okay?
    Secretary Blake, I had mentioned in my statement about the 
importance of the summit. I will say again how much I deeply 
appreciate the administration's support and endorsement for 
having this summit to begin with. Something not only as a 
credit to you and Secretary Clinton, but especially also a 
credit to President Nazarbayev. And I think more than anything, 
if there is a sense of recognition to the world, to our country 
with the current problems that we are involved with in 
Afghanistan, how important Central Asia is. And so we must 
never forsake our being negligent in our efforts in dealing 
with the good people that live in these countries.
    Over the years, because I come from the other side of the 
world, I have been very critical of our policies toward the 
Pacific--which is zero, except for New Zealand and Australia. 
The 16 other Pacific Island countries always seemed like they 
don't exist. And I give that sense of concern because, as I 
said, the public and the American people are not very much 
aware of Central Asia or the fact that these people have just 
come out from under the yoke of communism, and they are 
struggling, as you are well aware.
    And I sincerely hope that with the resources and the 
opportunities and the things that America can offer, the good 
people, the 65 million people living in these countries, that 
we should share the benefit and the resources that we have in 
such a way that Central Asia continues to grow and its 
countries become the kind of democracies that the people and 
the leaders there would like to have.
    Ambassador Blake. Mr. Chairman, let me just comment on that 
briefly, let me say that I couldn't agree with you more. And I 
think that the fact that Kazakhstan will be the first country 
east of Vienna to ever host an OSCE summit is, in itself, a 
milestone for Kazakhstan and for Central Asia. And I think it 
will do a lot to publicize some of the important things that 
are happening in Central Asia, just the existence of this, and 
the fact that so many world leaders will be converging on 
Kazakhstan in early December.
    Mr. Faleomavaega. Unfortunately, I would hazard a guess 
that the vast majority of the American people do not know what 
the OSCE is. And for the record could you elaborate a little 
more, Mr. Secretary, as some kind of an organization that deals 
with security in Europe, or something like that, involving some 
56 countries of which Kazakhstan is a member of.
    Ambassador Blake. That is right.
    Mr. Faleomavaega. And I would like to ask you if you could 
elaborate for the record, what is the OSCE? And what does this 
have to do with America?
    Ambassador Blake. Well, the United States has been one of 
those countries that, as you said, has been working actively 
with the OSCE for many, many years on all of the pillars that 
the OSCE works on. The OSCE has played a particularly important 
role recently in Central Asia, as I said, where they have been 
real leaders in working with the United States, with the 
European Union, with Russia, to help first to organize these 
very important elections. Around the Central Asia space, they 
are very active in helping all of these countries to organize 
elections, and then try to make sure that they conform to OSCE 
standards and help them provide in a technical capacity to do 
that.
    But they have also been very active in other ways in 
Kyrgyzstan. I mentioned this International Commission. The OSCE 
played an active role in that to help to organize that 
Commission, to help investigate the crimes and the murders that 
took place there in southern Kyrgyzstan.
    And then the OSCE now has been involved in helping to 
improve the police to upgrade their forces there to introduce 
community policing, to have an ethnic Uzbek component to that. 
So that the police forces themselves enjoy the trust of the 
people, and the confidence of the people which, as you know, is 
so important and very important we have learned here in our own 
country.
    So I think those are some of the examples of the very 
practical and important ways of the OSCE. It is not simply a 
talk shop, they are doing very important work on the ground in 
many of these countries.
    Mr. Faleomavaega. Well, Mr. Secretary, again, I want to 
thank you for taking the time from your busy schedule to come 
and testify at the last subcommittee hearing I will chair. I am 
about to terminate my services as chairman. And I will say, for 
the record, it has been my privilege to work with your office, 
and with you closely in discussing some of these issues that 
are important to the needs of the good people of Central Asia.
    My deepest regrets, and the problem is I make too many 
presumptions. I just presumed that we were going to continue 
being in the majority. But the American people have spoken 
otherwise. So this is how our democracy operates and I look 
forward to working with our chairman-to-be. I don't even know 
how they are going to reorganize the committee. We may have 
fewer subcommittees, but that is their prerogative in being the 
majority party in the House, and we will respect that.
    And we will just have to see what adjustments we need to 
make in the coming weeks. But again, Mr. Secretary, thank you 
so much for all that you do for our country and what you do for 
the good people of Central Asia. And if you have any questions 
or any more thoughts, I am about to hit the gavel if I can find 
it.
    Ambassador Blake. Let me just, in conclusion, thank you 
again for your leadership, Mr. Chairman, and to say that just 
because you are moving into the minority doesn't excuse you 
from continuing to----
    Mr. Faleomavaega. Well, I am used to being in the minority, 
so a minority within a minority. How does that sound?
    Ambassador Blake. And I hope that means we can get you out 
to Tajikistan and Turkmenistan.
    Mr. Faleomavaega. I hope someday to take my cousins like 
Troy Polamalu and Jesse Sapolu, and Ma'ake Kemoeatu playing for 
the Redskins, who lost to the Eagles, a couple days ago, 
whatever. Tremendous athletes, athletic potential that we have 
there among the Central Asian countries. Our first love where I 
come from is rugby. I just hosted one of the rugby icons of the 
world, Michael Jones, one of the most famous rugby players from 
the New Zealand All Blacks. He was just here a couple days ago. 
And nothing like having good sports to promote friendship. 
Central Asian countries produce good wrestlers.
    Ambassador Blake. They do.
    Mr. Faleomavaega. And I have learned also how to appreciate 
how to prepare horse meat for breakfast, for lunch and for 
dinner. You wouldn't even know it is horse meat. But it is 
delicious, you should try it, Mr. Secretary.
    Ambassador Blake. Oh, I have had it, I have had it.
    Mr. Faleomavaega. Yeah, I love it. But I will say, Mr. 
Secretary. I have a very, very strong affection for the people 
of Central Asia, and I, again, commend you for all that you do 
for them. And I sincerely hope that our Government and the 
American people will show that we are a hospitable people too, 
if given the opportunity, and sharing with them our resources 
in such a way that our communities will mutually benefit. 
Again, Mr. Secretary, thank you.
    The meeting is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
                                     

                                     













                            A P P E N D I X

                              ----------                              


         Material Submitted for the Hearing Record Notice

                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Letter to President Obama 
      Material Submitted for the Record by the Honorable Eni F.H. 
     Faleomavaega, a Representative in Congress from American Samoa

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Letter to Secretary Rice

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             Watson statement 
                               __________

                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
